           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
         STATE OF ARIZONA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2010

     February 2012   A-77-12-00004



  MANAGEMENT
ADVISORY REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                        SOCIAL SECURITY
MEMORANDUM

Date:      February 16, 2012                                            Refer To:

To:        Frances Cord
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Arizona for the Fiscal Year
           Ended June 30, 2010 (A-77-12-00004)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Arizona for the Fiscal Year ended June 30, 2010. Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           The Arizona Auditor General performed the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by the Arizona Auditor
           General and the reviews performed by HHS. We conducted our review in accordance
           with the Council of the Inspectors General on Integrity and Efficiency’s Quality
           Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Arizona Disability Determination Services (AZ-DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The AZ-DDS is reimbursed for 100 percent of allowable costs. The
           Department of Economic Security (DES) is the AZ-DDS’ parent agency.

           The single audit reported:

           •   DES incorrectly allocated capital expenditures of $19,967 to various Federal
               programs, including SSA, as an indirect cost (Attachment A, Pages 1 and 2). The
               corrective action plan indicates DES implemented controls that prevent capital
Page 2 – Frances Cord


    assets from being charged as an indirect cost and corrected the overcharge to
    Federal programs through an expenditure adjustment (Attachment A, Page 3).

•   AZ-DDS overpaid its telecommunications vendor approximately $191,709 from
    October 2000 through August 2010 (Attachment A, Pages 3 and 4). 1 The corrective
    action plan indicates the AZ-DDS will conduct quarterly reviews of billings to ensure
    vendors are charging the appropriate amounts and is attempting to recoup the
    overpayment from the vendor (Attachment A, Page 4).

•   AZ-DDS did not maintain documentation of its determination that vendors have not
    been suspended or debarred from doing business with the Federal Government.
    The corrective action plan indicates AZ-DDS will print verification that the vendor has
    not been suspended or debarred from doing business with the Federal Government
    and retain documentation in the contract file (Attachment A, Page 4).

We recommend that SSA:

1. Verify it received reimbursement for the unallowable indirect costs allocated to the DI
   program.

2. Ensure AZ-DDS puts adequate procedures in place for reviewing vendor invoices.

3. Request a refund of $191,709 for the unallowable telecommunication expenses
   charged to the DI program from October 2000 through August 2010.

4. Verify that AZ-DDS maintains appropriate suspension and debarment
   documentation.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                              Patrick P. O’Carroll, Jr.

Attachments

cc:
Lynn Bernstein


1
 The single audit reported the estimated overpayment was $1,611 per month for the DI program from
October 2000 through August 2010, which totals $191,709.
Attachment A
  Page 1 of 4
Attachment A
  Page 2 of 4
Attachment A
  Page 3 of 4
Attachment A
  Page 4 of 4
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
